  Department of Health and Human Services
                     OFFICE OF 

                INSPECTOR GENERAL 





 FLORIDA GENERALLY ENSURED THAT 

PROVIDERS COMPLIED WITH SELECTED 

STATE DURABLE MEDICAL EQUIPMENT 

    ENROLLMENT REQUIREMENTS


    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov. 
                                            




                                                      Lori S. Pilcher

                                                 Regional Inspector General 


                                                          May 2013

                                                        A-04-12-07034 

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                      EXECUTIVE SUMMARY 


  Florida generally ensured that providers complied with selected State durable medical
  equipment enrollment requirements. However, about $1.9 million in Medicaid DME
  program funds was vulnerable to fraud, waste, and abuse.


WHY WE DID THIS REVIEW

We chose to review durable medical equipment (DME) providers in Miami-Dade County,
Florida because of the historically high level of fraud risk associated with DME and medical
supply providers (DME providers) in South Florida. In March 2007, the Department of Health
and Human Services and the Department of Justice formed a Medicare Fraud Strike Force
consisting of Federal, State, and local investigators to combat the fraudulent activities of
suppliers ofDME, prosthetics, orthotics, and supplies in South Florida through the use of real­
time analysis of Medicare billing data. During a 3-month period in 2007, 56 individuals were
charged in South Florida with fraudulently billing Medicare more than $258 million (OEI-03-07­
00540). In 2006, 31 percent of suppliers in three South Florida counties did not maintain a
physical facility or were not open and staffed during unannounced site visits. Finally, another 14
percent of suppliers were open and staffed but did not meet at least 1 of 3 additional
requirements for the standards that were reviewed (OEI-03-07-00150).

Our objective was to determine whether the Florida Agency for Health Care Administration
(State agency) ensured that DME providers complied with selected Florida DME enrollment
requirements.

BACKGROUND

DME is medically necessary equipment that can withstand repeated use, serves a medical
purpose, and is appropriate for use in the recipient's home. The Medicaid DME program
reimburses providers that sell or rent DME and medical supplies, including hospital beds,
orthotic devices, diabetic testing strips, incontinence supplies, wheelchairs, walkers, oxygen
equipment, and other home health care items.

WHAT WE FOUND

The State agency generally ensured that DME providers complied with selected Florida DME
enrollment requirements. Of the 71 DME providers that we visited in Miami-Dade County and
that received a total of about $15 million from Medicaid during the 13 months prior to our site
visits, 61 providers complied with the selected enrollment requirements. However, 10 providers
did not comply: 6 did not have the required signage to identify them as DME providers, 2 either
did not meet the business-hour requirements or were not open during posted business hours, and
2 did not notify the State agency that their business addresses had changed.

These 10 providers did not comply with the enrollment requirements because the State agency
did not maintain proper oversight through periodic monitoring. The State agency requires the

Providers Generally Complied With Florida Durable Medical Equipment Enrollment Requirements
(A-04-12-07034)
applicant's DME and medical services business to receive an unannounced site visit before the
DME provider is approved for enrollment, unless it is exempt from a pre-enrollment site visit.
However, followup site visits are not a State agency requirement for continued enrollment or re­
enrollment as a DME provider. For these 10 providers, we were not able to find documentation
offollowup site visits in their p rovider files. As a result of the State agency's lack of periodic
monitoring ofDME providers, the Medicaid DME program in general and the $1,907,669 that
the State agency claimed for these 10 providers were vulnerable to fraud, waste, and abuse.

WHAT WE RECOMMEND

We recommend that the State agency:

    • 	 terminate, sanction, or recoup Medicaid funds from the providers not in compliance with
        the State agency's DME enrollment requirements and

    • 	 strengthen enrollment procedures to include recurring site visits to ensure that DME
        providers comply with the State agency's enrollment requirements.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency generally did not concur with our
findings. Ofthe 10 DME providers that we identified as not being in compliance with the
selected enrollment standards, the State agency concurred with our findings for 4 providers. The
State agency did not agree that six DME providers were not in compliance with requirements
related to having adequate signage or meeting business hours. After our visits to the DME
providers, the State agency said that it conducted onsite reviews of the providers who are
currently active and found that, in most instances, the errors that we identified were not evident
at the time of its visits.

In addition, the State agency suggested that we revise the title of our audit report because it
implied a greater rate of noncompliance than the review actually determined. The State agency
also suggested that we clarify that the instances of noncompliance fell on only 5 days after the
13-month period oftime for which we reported total payments to the noncompliant DME
providers.

The State agency also stated that it has instituted a vigorous pre-enrollment process and also
conducts regular and unannounced monitoring site visits to verify compliance with Medicaid
policy.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency's comments, we revised the title of this report; however, we
maintain that our findings are valid. When we made our onsite visits, 10 DME providers were
not in compliance with the selected enrollment requirements, as evidenced by the pictures we
have from our onsite visits. We also maintain that, because the DME providers were not in



Providers Generally Complied With Florida Durable Medical Equipment Enrollment Requirements
(A-04-12-07034)                                                                                       ii
compliance with the selected emollment requirements, payments made to these providers during
the period preceding the site visits were vulnerable to fraud, waste, and abuse.




Providers Generally Complied With Florida Durable Medical Equipment Enrollment Requirements
(A-04-1 2-07034)                                                                              iii
                                                      TABLE OF CONTENTS 



INTRODUCTION .................................................................................................................... ! 


           Why We Did This Review ............................................................................................ 1 


           Objective ................................................................................................................... .. .. I 


           Background ................................................................................................................... 1 

                 The Medicaid Program ..................................................................................... 1 

                 Florida's Durable Medical Equipment Program ............................................... 2 


           How We Conducted This Review ............................. ....... ........................... ................. 2 


FINDINGS ................................................................................................................................ 3 


           Durable Medical Equipment Providers Did Not Have Adequate Business 

            Signage ...................................................................................................................... 4 


           Durable Medical Equipment Providers Failed To Meet Business-Hour 

            Requirements ............................................................................................................. 4 


           Durable Medical Equipment Providers Failed To Notify the State Agency 

            Upon Changing Physical Location or Discontinuing Operations ............................. .4 


RECOMMENDATIONS .......................................................................................................... 4 


STATE AGENCY COMMENTS ............................................................................................. 5 


OFFICE OF INSPECTOR GENERAL RESPONSE .................................................................. 5 


APPENDIXES 


          A: 	 State Requirements for Durable Medical Equipment 

                 And Medical Supply Providers ........................................................................... 6 


          B: Audit Scope and Methodology ............................................................................... 7 


          C: Related Office oflnspector General Reports .......................................................... 9 


          D: State Agency Comments ......................................................................................... 10 





Providers Generally Complied With Florida Durable Medical Equipment Enrollment Requirements
(A-04-12-07034)                                                                                                                                      iv
                                              INTRODUCTION 


WHY WE DID THIS REVIEW 


We chose to review durable medical equipment (DME) providers in Miami-Dade County,
Florida, because of the historically high level of fraud risk associated with DME and medical
supply providers (DME providers) in South Florida. In March 2007, the Department of Health
and Human Services and the Department of Justice formed a Medicare Fraud Strike Force
consisting of Federal, State, and local investigators to combat the fraudulent activities of
suppliers ofDME, prosthetics, orthotics, and supplies in South Florida through the use of real­
time analysis of Medicare billing data. During a 3-month period in 2007, 56 individuals were
charged in South Florida with fraudulently billing Medicare more than $258 million. 1 In 2006,
31 percent of suppliers in three South Florida counties did not maintain a physical facility or
were not open and staffed during unannounced site visits. Finally, another 14 percent of
suppliers were open and staffed but did not meet at least 1 of 3 additional requirements for the
standards that were reviewed. 2

OBJECTIVE

Our objective was to determine whether the Florida Agency for Health Care Administration
(State agency) ensured that DME providers complied with selected Florida DME enrollment
requirements.

BACKGROUND

The Medicaid Program

How Is It Administered?

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities and, along with the Medicare program, represents one of the largest areas of
spending in the Federal Government. In contrast to the Medicare program, both the Federal and
State Governments jointly fund and administer the Medicaid program.

At the Federal level, the Centers for Medicare & Medicaid Services (CMS), an agency with the
Department of Health and Human Services, administers the Medicaid program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. The State
plan establishes which services the Medicaid program will cover. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements.

1
    South Florida Durable Medical Equipment Suppliers: Results ofAppeals, report number OEI-03-07-00540.
2
 South Florida Suppliers' Compliance With Medicare Standards: Results From Unannounced Visits, report
number OEI-03-07-00150.


Providers Generally Complied With Florida Durable Medical Equipment Enrollment Requirements
(A-04-12 -07034)                                                                                           I
Florida's Durable Medical Equipment Program

What is Durable Medical Equipment?

DME is medically necessary equipment that can withstand repeated use, serves a medical
purpose, and is appropriate for use in the recipient's home. The Medicaid DME program
reimburses providers that sell or rent DME and medical supplies, including hospital beds,
orthotic devices, diabetic testing strips, incontinence supplies, wheelchairs, walkers, oxygen
equipment, and other home health care items.

Who Administers the Medicaid Durable Medical Equipment Program in Florida?

In Florida, the State agency administers the Medicaid program. Within the State agency, the
Provider Enrollment office is responsible for processing all initial and renewal applications for
enrollment made by DME providers and for checking their qualifications and compliance with
all applicable enrollment requirements.

What Are the Requirements to Enroll as a Durable Medical Equipment Provider in Florida?

To meet requirements for enrollment as a Medicaid DME provider, each provider must: (1) be
licensed by the Florida Department of Health, if applicable, and various agencies; (2) comply
with applicable laws relating to qualifications or licensure; and (3) have an in-State business
location or be located not more than 50 miles from the Florida State line.

Once they meet these requirements, the types of entities that may enroll in the DME program
include: (1) businesses and pharmacies that supply DME and medical supplies; (2) home health
agencies; (3) orthopedic physicians' groups that supply orthotic and prosthetic devices, which
are not otherwise included in the physician's office visit charge; and (4) optometrists and
opticians who supply prosthetic eyes.

To become eligible for initial enrollment, continued enrollment, or re-enrollment as a Medicaid
DME provider, each applicant must meet the enrollment requirements, unless otherwise exempt.
For details on the State requirements related to DME providers, see Appendix A.

The State agency requires the applicant's DME and medical services business to receive an
unannounced site visit before the DME provider is approved for enrollment, unless it is exempt
from a pre-enrollment site visit. However, followup site visits are not a State agency
requirement for continued enrollment or re-enrollment as a DME provider.

HOW WE CONDUCTED THIS REVIEW

For the period March 1, 2011, through March 31,2012, the State agency paid claims for DME
providers totaling about $152 million, to 4,066 DME providers throughout Florida. We limited
our review to Medicaid DME providers within Miami-Dade County, Florida. We did not review
DME providers that were: (1) entities operated by and within a pharmacy that is currently


Providers Generally Complied With Florida Durable Medical Equipment Enrollment Requirements
(A-04-12-07034)                                                                                     2
enrolled as a Medical pharmacy provider, (2) individuals who were licensed Medicaid-enrolled
orthotists or prosthetists who provide only orthotic or prosthetic devices, (3) under Federal
investigation, or (4) reimbursed less than $5,000 by the State agency during the audit period. We
reviewed 71 DME providers that received a total of$15,389,164 in Medicaid reimbursements to
determine whether they complied with 5 judgmentally selected DME enrollment requirements
relating to (1) physicallocation, 3 (2) business hours, (3) signage, (4) functional land-line business
phone, and (5) proof of current accreditation that were identifiable during onsite inspections.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perfmm the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology and Appendix C contains
the related OIG reports.

                                                 FINDINGS

The State agency generally ensured that DME providers complied with selected Florida DME
enrollment requirements. Of the 71 DME providers that we visited in Miami-Dade County and
that received a total of about $15 million from Medicaid during the 13 months prior to our site
visits, 61 providers complied with the selected enrollment requirements. However, 10 providers
did not comply:

    • 	 Six providers did not have the required signage to identify them as DME providers.

    • 	 Two providers either did not meet the business-hour requirements or were not open
        during posted business hours.

    • 	 Two providers did not notify the State agency that their business addresses had changed.

These 10 providers did not comply with the enrollment requirements because the State agency
did not maintain proper oversight through periodic monitoring. The State agency requires the
applicant's DME and medical services business to receive an unannounced site visit before the
DME provider is approved for enrollment, unless it is exempt from a pre-enrollment site visit.
However, followup site visits are not a State agency requirement for continued enrollment or re­
enrollment as a DME provider. For these 10 providers, we were not able to find documentation
offollowup site visits in their provider files. As a result of the State agency's lack of periodic
monitoring ofDME providers, the Medicaid DME program in general and the $1,907,669 that
the State agency claimed for these 10 providers were vulnerable to fraud, waste, and abuse.



3
 In addition to checking whether the DME provider has a physical location with DME and medical supplies on site,
we also verified that the provider was at the current location identified by the State.


Providers Generally Complied With Florida Durable Medical Equipment Enrollment Requirements
(A-04-1 2-07034)                                                                                               3
DURABLE MEDICAL EQUIPMENT PROVIDERS DID NOT HAVE ADEQUATE
BUSINESS SIGNAGE

Chapter 1 ofthe DME and Medical Supply Services Coverage and Limitations Handbook (the
Handbook) says that a provider must have signage that readily identifies the business location as
a business that furnishes DME, medical supplies, or both. Six providers did not comply with this
requirement.

DURABLE MEDICAL EQUIPMENT PROVIDERS FAILED TO MEET
BUSINESS-HOUR REQUIREMENTS

Chapter 1 of the Handbook requires that a provider must have posted business hours and that it
operate no less than 5 hours per day, 5 days per week.

Two providers did not comply with these requirements. One provider did not have its business
hours posted. The other provider was not open during its posted business hours.

DURABLE MEDICAL EQUIPMENT PROVIDERS FAILED TO NOTIFY THE STATE
AGENCY UPON CHANGING PHYSICAL LOCATION OR DISCONTINUING
OPERATIONS

Chapter 1 of the Handbook requires that a provider must have a current physical DME business
location and that the State agency's Provider Enrollment office must be notified of any change in
that location. The Florida Medicaid Provider Enrollment Application requires the provider to
certify that it is its responsibility to notify Medicaid's fiscal agent of any change to the
information on the application. In addition, Chapter 2 of the Florida Medicaid Provider General
Handbook states that, if a provider's business is closed, abandoned, or nonoperational, the
effective date of termination will be the date that the business was closed, abandoned, or became
non-operational or that the State became aware of the change.

Two providers did not notify the State agency that their businesses were either no longer at the
physical location provided to the State agency or closed, abandoned, or nonoperational.
Specifically, one provider had a physical DME location with DME and medical supplies on site;
however, the State agency did not know that it had relocated. During our site visit of the other
provider, we found a vacant facility.

                                      RECOMMENDATIONS

We recommend that the State agency:

    • 	 tern1inate, sanction, or recoup Medicaid funds from the providers not in compliance with
        the State agency's DME enrollment requirements and

    • 	 strengthen enrollment procedures to include recurring site visits to ensure that DME
        providers comply with the State agency's enrollment requirements.



Providers Generally Complied With Florida Durable Medical Equipment Enrollment Requirements
(A-04-12-07034)                                                                                    4
                                  STATE AGENCY COMMENTS 


In written comments on our draft report, the State agency generally did not concur with our
findings. Ofthe 10 DME providers that we identified as not being in compliance with the
selected enrollment standards, the State agency concmTed with our findings for 4 providers. The
State agency did not agree that six DME providers were not in compliance with requirements
related to having adequate signage or meeting business hours. After our visits to the DME
providers, the State agency said that it conducted onsite reviews of the providers who are
currently active and found that in most instances, the errors that we identified were not evident at
the time of its visits.

In addition, the State agency suggested that we revise the title of our audit report because it
implied a greater rate of noncompliance than ihe review actually determined. The State agency
also suggested that we clarify that the instances of noncompliance fell on only 5 days after the
13-month period of time for which we reported total payments to the noncompliant DME
providers.

The State agency also stated that it has instituted a vigorous pre-enrollment process and also
conducts regular, unannounced monitoring site visits to verify compliance with Medicaid policy.

We attached the State agency's comments with certain information redacted for privacy/security
reasons at Appendix D.

                       OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency's comments, we revised the title of this report; however, we
maintain that our findings are valid. When we made our onsite visits, 10 DME providers were
not in compliance with the selected enrollment requirements, as evidenced by the pictures we
have from our onsite visits. We also maintain that, because the DME providers were not in
compliance with the selected enrollment requirements, payments made to these providers during
the period preceding the site visits were vulnerable to fraud, waste, and abuse.




Providers Generally Complied With Florida Durable Medical Equipment Enrollment Requirements
(A-04-12 -07034)                                                                                   5
    APPENDIX A: STATE REQUIREMENTS FOR DURABLE MEDICAL EQUIPMENT 

                     AND MEDICAL SUPPLY PROVIDERS 


Chapter 1 of the DME and Medical Supply Services Coverage and Limitations Handbook states:
to become eligible for initial enrollment, continued enrollment, or re-enrollment as a Medicaid
DME provider, each applicant must meei the enrollment requirements, unless otherwise exempt.
Below are some of the enrollment requirements with which each applicant must comply. The
applicant must:
                                                  4
     • 	 have a physical DME business location with DME and medical supplies on site and
         readily available to the general public;

     • 	 be easily accessible to the local public served during its scheduled, posted business hours
         and must operate no less than 5 hours per day, 5 days per week;

     • 	 have signage that can be easily read from a distance of20 feet that readily identifies the
         business location as a business that furnishes DME, medical supplies, or both;

     • 	 have a functional land-line business phone; and

     • 	 submit proof of current accreditation as a prerequisite for enrollment, continued 

         enrollment, or reenrollment. 


The Florida Medicaid Provider Enrollment Application requires the provider to certify that it is
its responsibility to notify Medicaid's fiscal agent of any change to the information on the
application. In addition, Chapter 2 of the Florida Medicaid Provider General Handbook states
that, if a provider's business is closed, abandoned, or nonoperational, the effective date of
termination will be the date that the business was closed, abandoned, or became non-operational
or that the State became aware of the change.




4
 In addition to checking whether the DME provider has a physical location with DME and medical supplies on site,
we also verified that the provider was at the current location identified by the State.

Providers Generally Complied With Florida Durable Medical Equipment Enrollment Requirements
(A-04-1 2-07034)                                                                                                   6
                   APPENDIX B: AUDIT SCOPE AND METHODOLOGY 


SCOPE 


For the period March 1, 2011, through March 31, 2012, we limited our review to certain
Medicaid DME providers within Miami-Dade County, Florida. We also excluded DME
providers that were exempt from any of the selected enrollment requirements, which included:

    • 	 individuals licensed as orthotists or prosthetists who provide only orthotic or prosthetic
        devices as Medicaid DME providers and

    • 	 DME providers that operated by and within a pharmacy and were currently enrolled as
        Medicaid pharmacy providers.

After taking into account the exclusions above, we determined that the State agency claimed
$15,389,164 ($8,574,068 Federal share) for DME and medical supply payments made to 71
DME providers during the audit period. We reviewed these DME providers.

We did not review the overall internal control structure of the State agency or the Medicaid
program. Rather, we limited our internal control review to the objective of our audit.

We conducted our fieldwork at the State agency's offices in Tallahassee, Florida, and at 71 DME
providers' offices throughout Miami-Dade County, Florida.

METHODOLOGY

To accomplish our objective, we:

    • 	 reviewed applicable State guidance;

    • 	 judgmentally selected five enrollment requirements relating to (1) physical location, (2)
        business hours, (3) signage, (4) functional land-line business phone, and (5) proof of
        current accreditation, that were identifiable during onsite inspections;

    • 	 interviewed the State agency officials to identify policies and procedures related to the
        DME enrollment requirements;

    • 	 obtained from the State agency a list of paid claims for all DME providers from March 1,
        2011, through March 31, 20 12;

    • 	 refined the list ofDME providers to exclude from our review the DME providers that
        were:

            o 	 entities operated by and within a pharmacy that is cmTently enrolled as a Medical
                pharmacy provider,

Providers Generally Complied With Florida Durable Medical Equipment Enrollment Requirements
(A-04-12-07034)                                                                                      7
            o 	 individuals who were licensed Medicaid-enrolled orthotists or prosthetists that
                provide only orthotic or prosthetic devices,

            o 	 under Federal investigation, or

            o 	 reimbursed less than $5,000 by the State agency during the audit period; and

    • 	 conducted site visits at 71 DME providers in Miami-Dade County, Florida.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Providers Generally Complied With Florida Durable Medical Equipment Enrollment Requirements
(A-04-12-07034)                                                                                   8
       APPENDIX C: RELATED OFFICE OF INSPECTOR GENERAL REPORTS


                                                                                               Date
                           Report Title                                  Report Number        Issued
  Review of Medicaid Payments to Excluded or Terminated                  A-04-11-07020         12/11
  Durable Medical Equipment Suppliers in Florida
  Review of Provider Compliance With the District of                      A-03-11-00202       08/11
  Columbia’s Medicaid Durable Medical Equipment Program
  Standards for Physical Presence
  Review of Medicare Claims for Home Blood-Glucose Test                   A-09-08-00046       02/11
  Strips and Lancets — Durable Medical Equipment Medicare
  Administrative Contractor for Jurisdiction D
  South Florida Durable Medical Equipment Suppliers:                     OEI-03-07-00540      10/08
  Results of Appeals
  Medical Equipment Suppliers: Compliance With Medicare                  OEI-04-05-00380      03/07
  Enrollment Requirements
  South Florida Suppliers’ Compliance With Medicare Standards:           OEI-03-07-00150      03/07
  Results from Unannounced Visits
  Medicaid Provider Enrollment Standards: Medical Equipment              OEI-04-05-00180      10/06
  Providers




Providers Generally Complied With Florida Durable Medical Equipment Enrollment Requirements
(A-04-12-07034)                                                                                        9
                        APPENDIX D: STATE AGENCY COMMENTS 





    RICK SCOTT                                                                          ELIZABETH DUDEK
                                     Better Health Care for all Floridians
    GOVERNOR                                                                               SECRETARY

                                                   April12, 2013



Ms. Lori S. Pilcher
Regional Inspector General for Audit Services
Department of Health & Human Services
Office of Inspector General
Office of Audit Services, Region IV
61 Forsyth Street, SW, Suite 3T41
Atlanta, GA 30303

Dear Ms. Pilcher:

Thank you for your letter of March 13, 2013, requesting us to provide comments on the draft
report number A-04-12-07034 entitled Florida Did Not Always Ensure That Providers Complied
With Selected State Durable Medical Equipment Enrollment Requirements. In accordance with
your request, we have emailed you our response .

If you have any questions regarding our response, please contact Mary Beth Sheffield, Audit
Director, at 850-412-3978.

                                                  Sincerely,




ED/szg
Enclosure




 2727 Mahan Drive • Ma i l Stop #1                                                  Visit AHCA online at
 Tallahassee. FL 32308                                                             AHCA.MyFiorida.com


Providers Generally Complied With Florida Durable Medical Equipment Requirements
(A -04-12-07034                                                                                        10
Summary of Findings
The State agency did not always ensure that DME providers complied with selected Florida DME
enrollment requirements . Of the 71 DME providers that we visited in Miami-Dade County and that received
a total of about $15 million from Medicaid during the 13 months that we reviewed , 60 providers complied
with the selected enrollment requirements . However, 10 providers did not comply: 6 did not have the
required signage to identify them as DME providers , 2 either did not meet the business-hour requirements
or were not open during posted business hours , and 2 did not notify the State agency that their business
addresses had changed.

These 10 providers did not comply with the enrollment requirements because the State agency did not
maintain proper oversight through periodic monitoring. The State agency requires the applicant's DME and
medical services business to receive an unannounced site visit before the DME provider is approved for
enrollment, unless it is exempt from a pre-enrollment site visit. However, follow up site visits are not a State
agency requirement for continued enrollment or reenrollment as a DME provider. For these 10 providers,
we were not able to find follow up site visits in their provider files. As a result of the State agency's lack of
periodic monitoring of DME providers, the Medicaid DME program in general and the $1 ,907,669 that the
State agency claimed for these 10 providers were vulnerable to fraud , waste, and abuse.

Recommendation#1
Terminate, sanction , or recoup Medicaid funds from the providers not in compliance with the State agency's
DME enrollment requirements.

Agenc y Response and Corrective Action Plan:
Florida Medicaid is statutorily required to conduct pre-enrollment site visits for every DME applicant
statewide to ensure compliance with current state and federal requirements prior to issuing a Medicaid
provider number; when an applicant is found not to be compliant, the application is denied and no provider
number is issued. While the Florida Medicaid program is very strict in its enforcement at pre-enrollment,
obviously a provider cannot be reviewed every day for non-compliance. Detection and enforcement
protocols have to be employed to ensure that priority is given to the higher risk providers. While AHCA
agrees that DME providers are, generally, among the higher-risk provider types, providers have to be
reviewed based upon the ir individual characteristics and subjected to on site follow up reviews as indicated
by claims analysis and other factors. In fact, as described further below, the identified providers have been
subjected to follow-up reviews since enrollment. Furthermore, while AHCA will accept evidence from any
source regarding provider non-compliance, and will take appropriate action as a result of that evidence, this
particular report suggests that the issues are more significant than AHCA can agree with.

There are nearly 500 active Medicaid DME providers presently in Miami-Dade County. The title of this
report implies a much greater rate of non-compliance than the review actually determined and we would
recommend that title be amended to appropriately reflect that fact, perhaps to describe that Florida has
Minor Deficiencies with regard to Selected Provider Enrollment Standards for Durable Medicaid Equipment
Providers. Additionally, the report implies that nearly $2 Million has been identified as potential
overpayment. However, the figure is based upon reimbursements over a 13-month period of time. The
alleged non-compliances were on a specific date (presumably one day each), and as such, any sanction or
overpayment potential is based solely upon the specific date that there is evidence to suggest that
non-compliance.

State law would not allow recovery of overpayments or sanctions for any non-compliance that is unknown
or speculative, therefore, the potential vulnerability addressed in the report should also be amended to
reflect the amount of reimbursement to each of the 10 DME providers on the single date that the reviewers
have evidence of potential non-compliance. The report should also be amended to clarify that while the
review encompassed a 13-month period of time, the non-compliances noted fell on only five days during
that period of time. It is simply inaccurate to suggest that the entire 13-month period of time revealed
non-compliances since the findings were based upon a single instance of a subjective event. The precise




Providers Generally Co mplied With Florida Durable Medical Equipment Requirements
(4 -04-12-07034                                                                                               11
date that each of the 10 DME provider locations were reviewed and the non-compliance found should be
noted in the report. AHCA will review the documentation provided by HHS, and consistent with state law,
appropriate action will be taken. If the policy violations are documented, Medicaid will consult with the
Office of Medicaid Program Integrity (MPI) regarding the appropriate sanction to be levied for that single
date of violation.

The dates of non-compliance covered five days, however, based upon the 13-month reimbursements, the
total amount of potential vulnerability is presumed to be less than $5,000 (combined for all10 providers).
This figure much more accurately describes the significant efforts that Florida makes to ensure that
participating providers are compliant with governing laws. Furthermore, the report fails to include any
reference to AHCA 's efforts to monitor compliance subsequent to enrollment. In fact, all1 0 of the providers
                                         1
identified by HHS have been reviewed by AHCA since their respective enrollment dates and on the date of
the AHCA reviews they were not found to be non-compliant in the areas noted by HHS.

Furthermore, subsequent to the HHS review AHCA conducted a brief onsite review of each of the providers
who are currently active                           is no longer an active provider) and found that in
most instances, any errors                        evident at the time of the AHCA visit.

       • 	 HHS indicated that six of the provider's did not have the required signage to identify them as DME
           providers - AHCA concurs with           to two of the providers and will refer those two providers
                                                    to MPI for sanction.

       • 	 HHS said that two DME providers either did not meet the business-hour requirements or were not
           open during posted business hours- AHCA does not concur with that assessment as both
           providers were open during posted hours and had hours properly posted.

       • 	 HHS said that two providers did not notify the State agency that their business addresses had
           changed- one was the provider whose business closed (AHCA will terminate that provider number
           as closed) and the other-) has either closed or relocated without advising AHCA; we will
           recommend that the Medtca:d"'fjirector terminate the contract for this provider.

The findings of this report demonstrate the Florida Medicaid program's aggressive stance regarding
provider compliance, particularly with regard to DME providers. Florida Medicaid takes advantage of all
current administrative tools at its disposal when an actively enrolled provider is found to have violated any of
the policies promulgated into rule. We believe the aforementioned recommended changes will more
accurately describe those efforts and do not believe further action is warranted.



Recommendation#2
Strengthen enrollment procedures to include recurring site visits to ensure that DME providers comply with
the State agency's enrollment requirements.

Agenc y Resp onse and Corrective Action Plan:
The Florida Medicaid Program requires every participating provider to sign a provider agreement as
required by Section 409.907, Florida Statutes. The provider agreement requires ongoing compliance with
the provisions of Medicaid policy that are considered at the time of enrollment. Furthermore, the agreement
at paragraph (5) subsection (p) states: '~ Medicaid provider shall agree to notify the Agency of any
changes to the information furnished on the Florida Medicaid Provider Enrollment Application including
changes of address, tax identification number, group affiliation, depository bank account, and principals ... "
Also, the Agency for Health Care Administration under Rule 59G-9.070, Florida Administrative Code,

1
    The nature of the review varied for each provider and they may not have all had an onsite review.




Providers Generally Complied With Florida Durable Medical Equipment Requirements
(A-04-12-07034                                                                                              12
sanctions violators under the authority as stated on paragraph 7, subsection (o) "For failure to comply with
the notice and reporting requirements of Section 409.907, F.S." or under paragraph 7, subsection (e) for
other policy violations such as signage or office hours violations. The Agency is also authorized to
terminate the contract with any participating provider, as specified in the provider agreement at paragraph
(7), with 30 days' notice to the provider. Had any of the violations noted by HHS been evident during
subsequent reviews which were conducted regarding these providers, the providers would have been
sanctioned or terminated for the violations.

As previously stated, the Florida Medicaid program recognized early on the importance of maintaining a
compliant DME provider network in order to avoid and suppress instances of fraud and abuse. Towards
that goal, the state of Florida has instituted a vigorous and proactive pre-enrollment process. In addition,
Florida Medicaid also conducts regular and unannounced monitoring site visits within their networks to
verify compliance with Medicaid policy. Furthermore, MPI conducts regular DME projects, the objectives
being to verify compliance with all applicable laws and policies. In cases where non-compliance issues are
uncovered, the Florida Medicaid program and its regulatory partners will apply all administrative sanctions
allowed by law including fines, recoupment of inappropriate reimbursements and termination from the
Medicaid program. The Florida Medicaid program will continue to conduct random monitoring visits to DME
providers and will work closely with MPI and our licensing partner within the Agency for Health Care
Administration to ensure compliance with all DME enrollment requirements.




Providers Generally Complied With Florida Durable Medical Equipment Requirements
(A -04-12-07034                                                                                          13
